UNITED STATES OF AMERICA

FEDERAL TRADE COMMISSION
WASHINGTON, D.C. 20580

 

Division of Enforcement
Bureau of Consumer Protection

September 26, 2000
Mr. Ron Vega
Director of Customs Compliance
Fruit of the Loom
One Fruit of the Loom Drive
P.O. Box 90015
Bowling Green, KY 42102-9015

Dear Mr. Vega:

This is in reply to your letter requesting a ruling from the Commission’s Division of
Enforcement regarding the application of 16 C.F.R. § 303.28 of the Rules and Regulations Under
the Textile Fiber Products Identification Act. Please be advised that the Federal Trade
Commission and its staff do not issue “rulings” in response to requests for advice. However, the
Commission has authorized its staff to respond to requests for advisory opinions when
appropriate. See 16 C.F.R. § 1.3.

In your letter, you state that Fruit of the Loom distributes wearing apparel items in
polyethylene bags (packages) with a “flip-top” opening at one end of each bag. Multiple
garments are folded and packed into these bags in such a manner that the labels bearing the
country of origin, fiber content, identity of the company, and care instructions are not necessarily
visible to the consumer through the packaging prior to purchase. You supplied staff with
samples of such garments in their bags. This staff opinion pertains to garments sold at retail
stores and does not address the packaging of products sold via mail order catalogs or over the
Internet."

In 1984, Congress amended the Textile and Wool Products Acts to require that a package
containing a textile product intended for sale to the ultimate consumer bear the information also
required to appear on the label of the product (i.e., fiber content, country of origin, and identity of
manufacturer or other dealer), unless the package is transparent and allows for a clear reading of
the label information. 15 U.S.C. §§ 70b(e) and 68c(c). The Commission implemented the
statutory requirement by adopting 16 C.F.R. § 303.28, which states:

| For information about the packaging and labeling of textile products sold via mail

order and over the Internet, see the Commission staff opinion letter, dated August 18, 2000, to
the Land’s End company, as posted on the Textile, Wool & Fur page of the Commission’s
Internet website.
Mr. Ron Vega, page 2

Products contained in packages.

When textile products are marketed and delivered in a package which is intended to
remain unbroken and intact until after delivery to the ultimate consumer, each textile
product in the package, except hosiery, and the package shall be labeled with the required
information. If the package is transparent to the extent it allows for a clear reading of the
required information on the textile product, the package is not required to be labeled.

A similar requirement was adopted for wool products sold in packages. 16 C.F.R. § 300.15.
Also, the Commission’s Care Labeling Rule states that if the product is packaged, displayed, or
folded so that customers cannot see or easily find the label, the care information must also appear
on the outside of the package or on a hang tag fastened to the product. 16 C.F.R. § 423.6(a).

You ask whether the flip-top polyethylene bags used by Fruit of the Loom for textile
products sold at retail stores are considered packages “intended to remain unbroken and intact
until after delivery to the ultimate consumer,” and therefore must be labeled in accordance with
16 C.F.R. § 303.28. Based on inspection of the sample packages that you provided, it is my
opinion that the flip-top bags may easily be opened to inspect the labels on the garments.
Therefore, I believe that it is not necessary to repeat the required label information on the bags.

You further inquire whether, pursuant to 16 C.F.R. § 303.16(c), certain “non-required”
statements about country of origin and fiber content may be placed on packages that are not
covered by the marking requirements of section 303.28. Section 303.16(c) of the Rules states
that “...any non-required information or representations placed on the product shall not minimize,
detract from, or conflict with required information and shall not be false, deceptive, or
misleading.” In particular, you ask whether statements such as, “Imported articles, see garment
for country of origin” or “See garment for country of origin,” may be placed on packages
containing items of varied origin. In general, package statements referring the consumer to
garment labels for origin information would not be misleading or conflict with required
information. However, under certain circumstances, consumers could be misled concerning
country of origin of packaged products. This could occur, for example, if multiple items were
packaged together so that the label of one of them, stating “Made in USA,” could be seen
through the package, while other labels, obscured by the first item, indicate foreign origin.
(Obviously, this situation also could occur if no origin information is placed on the package.)

In addition, you ask whether a package label may indicate that items in the package have
different fiber content, provided that it clearly indicates which items are made of each particular
fiber or fiber blend. Such label information would be appropriate provided that it is not
deceptive or misleading.

I wish to emphasize that care must be taken to avoid deception in each of the situations
outlined in your letter. Pursuant to the FTC Act, 15 U.S.C. § 41 et seq., the Commission has
been directed by Congress to act in the interest of all consumers to prevent deceptive or unfair
acts or practices. Under Section 5 of that statute, 15 U.S.C. § 45, the Commission has
determined that a representation, omission, or practice is deceptive if (1) it is likely to mislead
Mr. Ron Vega, page 3

consumers acting reasonably under the circumstances; and (2) it is material, that is, likely to
affect consumers' conduct or decisions with respect to the product at issue. For your
convenience, I have enclosed a copy of the Commission’s Policy Statement on Deception.

If you have not already done so, you may wish to obtain a ruling from the United States
Customs Service as to whether poly-bags containing imported products must be marked with the
country of origin pursuant to the Tariff Act.

In accordance with Section 1.3(c) of the Commission's Rules of Practice and Procedure,
16 C.F.R. § 1.3(c), this is a staff opinion only and has not been reviewed or approved by the
Commission or by any individual Commissioner, and is given without prejudice to the right of
the Commission later to rescind the advice and, where appropriate, to commence an enforcement
action.

In accordance with Section 1.4 of the Commission's Rules of Practice and Procedure, 16
C.F.R. § 1.4, your request for advice, along with this response, will be placed on the public
record.

Thope this information has been helpful.

Sincerely,

 

Elaine D. Kolish
Associate Director for Enforcement

Enclosure
